                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C.

                                                                                            OFFICE OF
                                                                                       INSPECTOR GENERAL



January 21, 2003

Memorandum

Subject:         Auditor’s Report for the Nevada Drinking Water State Revolving Fund
                 as of June 30, 2001
                 Audit Report No.2003-1-00048

From:            Michael A. Rickey
                 Director for Assistance Agreement Audits

To:              Wayne Nastri
                 Regional Administrator
                 EPA, Region 9
                 San Francisco, CA

Attached is a copy of the subject audit we sent to the State of Nevada. The audit contains reports on the
financial statements, internal controls, and compliance requirements applicable to the Drinking Water State
Revolving Fund (SRF) program in Nevada for the year ended June 30, 2001.

We issued an unqualified opinion on the financial statements and on the compliance requirements
applicable to the Drinking Water SRF program. In addition, we did not note any matters involving the
internal control system and operations that we consider to be material weaknesses.

Since we did not have any compliance matters or costs questioned, and we are closing the audit report on
issuance.

The OIG has no objection to the release of this report to any member of the public upon request. The report
contains no confidential business or proprietary information.

If you have any questions or concerns regarding this matter, please feel free to contact Paul Felz at (303) 312-
6270 or Mr. William Dayton at (916) 498-6590.

Attachment
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                            WASHINGTON, D.C.
                                                                                             OFFICE OF
                                                                                         INSPECTOR GENERAL




January 21, 2003

Mr. Alex Haartz, Deputy Administrator
Nevada State Health Division
Department of Human Resources
1179 Fairview Drive, Suite 201
Carson City, Nevada 89701-5405

Re:   Final Report of Audit of Financial Statements of Nevada Drinking Water State Revolving Fund for
      the year ended June 30, 2001

Dear Mr. Haartz:

Attached please find an electronic copy of the Nevada Drinking Water State Revolving Fund audited
financial statements of the year ended June 30, 2001.

In order to present the financial statements in accordance with generally accepted accounting principles,
we made certain proposed adjustments to the state’s financial statements, which your staff has agreed
with.

We would like to take this opportunity to thank you and your staff for the cooperation and courtesies we
received during our audit. Please call me at (916) 498-6590 or Mr. Paul Felz at (303) 312-6270 should
you have any comments or questions.

Sincerely,




William M. Dayton
SRF Audit Manager
Nevada Drinking Water State Revolving Fund
        Financial Statements with
      Independent Auditor's Report
                   June 30, 2001

           Audit Report No. 2003-1- 00048
Inspector General Division
Conducting the Audit:        Western Audit Division
                              San Francisco, California

Region Covered:              Region 9

Program Office Involved:     Drinking Water Unit

State Offices:               Department of Human Resources,
                             Nevada State Health Division,
                             Bureau of Health Protection Services

Auditors Conducting Audit:   Paul Felz
                             Yeon Kim
                             Darren Schorer
                                          Nevada Drinking Water State Revolving Fund
                                                      Table of Contents



Independent Auditor’s Report ....................................................................................................................... 1

Balance Sheet............................................................................................................................................... 2

Statement of Revenues, Expenses, and Changes in Retained Earnings .................................................... 3

Statement of Cash Flows .............................................................................................................................. 4

Notes to the Financial Statements ................................................................................................................ 5

Independent Auditor’s Report on the Internal Control Structure Based on an Audit of
the Financial Statements Performed in Accordance with Government Auditing Standards....................... 10

Independent Auditor’s Report on Compliance with the Requirements Applicable to the
Environmental Protection Agency’s State Revolving Fund Program in Accordance with
Government Auditing Standards ................................................................................................................ 12

Supplemental Information ........................................................................................................................... 14
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                              WASHINGTON, D.C.
                                                                                                 OFFICE OF
                                                                                             INSPECTOR GENERAL




                                        Independent Auditor’s Report

To:     Mr. Alex Haartz, Deputy Administrator
        Nevada State Health Division

We have examined the accompanying balance sheet of the Nevada Drinking Water State Revolving Fund
Program (the Program) as of June 30, 2001, the related statement of revenues, expenses, and changes
in retained earnings, and the statement of cash flows for the year then ended. These financial statements
are the responsibility of the Program’s management. Our responsibility is to express an opinion on these
financial statements based on our audit.

We conducted our audit in accordance with generally accepted auditing standards in the United States of
America and Government Auditing Standards issued by the Comptroller General of the United States of
America. Those standards require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the financial statements. An audit
also includes assessing the accounting principles used and significant estimates made by management,
as well as evaluating the overall financial statement presentation. We believe that our audit provides a
reasonable basis for our opinion.

In our opinion, the financial statements referred to in the first paragraph present fairly, in all material
respects, the financial position of the Program as of June 30, 2001, and the results of its activities and its
cash flows for the year then ended in conformity with generally accepted accounting principles in the
United States of America.

Our audit was conducted for the purpose of forming an opinion on the combined financial statements
taken as a whole. The supplemental information is presented for purposes of additional analysis of the
combined financial statements. The supplemental information has been subjected to the auditing
procedures applied in the audit of the combined financial statements and, in our opinion, is fairly stated in
all material respects in relation to the combined financial statements taken as a whole.

As discussed in Note 1, the financial statements referred to above are intended to present the financial
position and results of operations of the Program, a component of a Special Revenue Fund of the State of
Nevada. These statements are not intended to present the financial position or results of operations for
the State of Nevada or the Nevada Bureau of Health Protection Services, of which the Program is a part.

In accordance with Government Auditing Standards, we have also issued a report dated July 25, 2002,
on our consideration of the Program’s internal control structure and a report dated July 25, 2002, on the
Program’s compliance with laws and regulations.


Office of Inspector General
Western Audit Division
San Francisco, California
July 25, 2002
                                            State of Nevada
                                  Drinking Water State Revolving Fund
                                            Balance Sheet
                                             June 30, 2001



                    Assets


Current assets:
 Cash and cash equivalents                                                           $        2,963,485
 Loan interest receivable                                                                       204,166
 Investment interest receivable                                                                  61,921
 Federal grants receivable                                                                      657,141
 Loans receivable – current portion                                                             801,102
     Total current assets                                                                     4,687,815

Loans receivable – long term portion                                                      23,011,117
Unamortized cost of issuance                                                                  77,830

Total assets                                                                         $    27,776,762

             Liabilities and Equity

Current liabilities:
 Accounts payable                                                                    $          16,020
 Accrued payroll                                                                                12,886
 Interest payable                                                                              170,752
 Contracts payable                                                                             580,141
     Total current liabilities                                                                 779,799

Long term liabilities
 Bonds payable (Note 3)                                                                       7,064,545
 Arbitrage rebate payable                                                                        37,699
    Total long term liabilities                                                               7,102,244

Total liabilities                                                                             7,882,043

Equity
 EPA contributions                                                                        19,312,602
 Retained earnings                                                                           582,117
Total equity                                                                              19,894,719

Total liabilities and equity                                                         $    27,776,762




                 The accompanying notes are an integral part of these financial statements.

                                                     2
                                            State of Nevada
                                 Drinking Water State Revolving Fund
                            Statement of Revenues, Expenses, and Changes
                                         in Retained Earnings
                                       Year Ended June 30, 2001




Revenues:
 Federal set aside receipts                                                           $     1,360,174
 Interest earned on investments                                                              240,012
 Interest earned on loans                                                                     463,904
      Total Income                                                                          2,064,090

Expenses:
 Set-asides:
   Administrative                                                                            221,754
   State program management                                                                  515,459
   Local assistance                                                                          441,140
   Technical assistance                                                                      181,821
 Interest on bonds                                                                           341,804
 Arbitrage rebate                                                                             37,699
 Amortization of cost of issuance                                                               3,563
    Total expenses                                                                          1,743,240

Net Income                                                                                   320,850
Beginning retained earnings                                                                  261,267
Ending retained earnings                                                              $      582,117




               The accompanying notes are an integral part of these financial statements.

                                                   3
                                            State of Nevada
                                 Drinking Water State Revolving Fund
                                       Statement of Cash Flows
                                      Year Ended June 30, 2001


Cash flows from operating activities:
Cash received from EPA for set-asides                                                   $     1,081,390
Interest received on investments                                                                222,010
Interest received on loans                                                                      492,280
Principal repayments received on loans                                                          427,551
Disbursements to loan recipients                                                            (11,970,075)
Interest on bonds                                                                              (299,455)
Cash paid for set-aside activities                                                           (1,037,520)
 Net cash used for operating activities                                                     (11,083,819)

Cash flows from financing activities:
Cash received from EPA for loans                                                             9,554,667
Proceeds from sale of bonds                                                                  1,587,727
Bond issuance costs                                                                            (31,545)
 Net cash provided by financing activities                                                  11,110,849
 Net Increase (decrease) in cash                                                                 27,030
Cash and cash equivalents, July 1, 2000                                                      2,936,455
Cash and cash equivalents, June 30,2001                                                 $    2,963,485




Reconciliation of operating income to net
 cash used for operating activities:
 Operating income                                                                       $      320,850

Adjustments to reconcile operating income to
 net cash used for operating activities:
Amortization of bond premium                                                                     (3,630)
Amortization of cost of issuance                                                                  3,563

Change in assets and liabilities:
(Increase) in accrued investment interest                                                        (18,002)
(Increase) in federal grant receivable                                                         (270,620)
Decrease in loan interest receivable                                                              28,376
(Increase) in loans receivable                                                              (11,542,524)
Increase in accounts payable                                                                    314,490
Increase in interest payable on bonds                                                             45,979
Increase in arbitrage rebate payable                                                              37,699
Total Adjustments                                                                           (11,404,669)

 Net cash (used for) operating activities                                               $ (11,083,819)




               The accompanying notes are an integral part of these financial statements.

                                                   4
                    NEVADA DRINKING WATER STATE REVOLVING FUND
                            Notes to the Financial Statements
                                      June 30, 2001


1.   Organization of the Fund

     The Nevada Drinking Water State Revolving Fund Program (the Program) was established
     in1997 pursuant to Nevada Revised Statutes 445A.200–445A.295 and the Federal Safe Drinking
     Water Act (SDWA). The Program was established to provide assistance to public water systems
     for projects that meet the eligibility requirements of the SDWA. The SDWA also allows the State
     to “set aside” up to 31% of the annual capitalization grants for administration of the Program (up
     to 4%), supplemental funding for the State’s Public Water System Supervision program (up to
     10%), for technical assistance to public water systems (up to 2%), and for other technical or
     financial assistance to public water systems (up to 15%).

     The Nevada Health Division’s (the Division) Bureau of Health Protection Services (the Bureau)
     manages the Program. The Bureau has developed policies and procedures for the loan and set-
     aside programs to meet the objectives of the State and Federal Acts and properly manage and
     coordinate the Program. The Bureau determines the level of funding to be contributed to the loan
     fund and used for loans and the amount to be set-aside for other eligible activities. The Bureau
     reviews loan applications for eligibility and subsequently prioritizes eligible projects with
     compliance-related projects addressing public health risks receiving the highest ranking. The
     Bureau’s staff reviews each loan applicant to determine its ability to repay the loan, its readiness
     to proceed with the project, its ability to complete the project, and the environmental impacts of
     the project. A list of prioritized loan applications is forwarded to the Board for Financing Water
     Projects for approval. Funding is offered to the highest-ranking projects that are ready to
     proceed, until all funds are used.

     Beginning in 1997, the Program received annual capitalization grants from the U.S.
     Environmental Protection Agency (EPA). Nevada is required to provide an amount equaling 20
     percent of the Federal capitalization grant as matching funds in order to receive each grant. As of
     June 30, 2001, EPA awarded $34,900,900 in capitalization grants for the Program, and Nevada is
     required to provide $6,980,180 as its matching share. The state match is acquired from proceeds
     of state match bonds issued on behalf of the Program by the State Treasurer’s Office.

     The Bureau has a small professional staff dedicated solely to the administration of Program
     activities. The allocated portion of salaries and benefits of other employees for time spent
     working on Program activities, as well as indirect costs based on direct costs, are also charged to
     the Program. Employees charging time to the Program are covered by the State of Nevada
     personnel benefits plan.

     The Program’s account balances and activities are included in Nevada’s Comprehensive Annual
     Financial Report (CAFR) as part of the Municipal Bond Bank special revenue fund, which uses
     the modified accrual basis of accounting. Because the Program is blended into this special
     revenue fund, its assets, liabilities, equity and activities are not identifiable in Nevada’s CAFR.
     Also, because of the different reporting methods, there may be differences between the amounts
     reported in these financial statements and Nevada’s CAFR.




                                                  5
2.   Summary of Significant Accounting Policies

     Basis of Accounting

     The Program’s financial statements are presented as an enterprise fund using the accrual
     method of accounting whereby revenues are recorded when earned and expenses are recorded
     when the related liability is incurred. An enterprise fund is used since the Program’s operations
     are similar to a financing institution where net income and capital maintenance are appropriate
     determinations of accountability that provide information to the EPA to assist in evaluating
     whether the Program is operating with the requirements of the SDWA. In preparing the Program
     financial statements, Nevada follows the accounting pronouncements of the Governmental
     Accounting Standards Board (GASB), as well as statements issued by the Financial Accounting
     Standards Board (FASB) before November 30, 1989, unless FASB pronouncements conflict with
     or contradict GASB pronouncements.

     Cash and Cash Equivalents

     The Nevada State Treasurer is an elected Constitutional Office and part of the Executive Branch
     of State government. The Treasurer is responsible for the handling of all State cash as a fiscal
     agent for the owning fund. The Treasurer manages an investment pool where all temporary
     surplus cash is invested. The investment pool has the same general characteristics as demand
     deposit accounts. Invested funds are considered to be cash equivalents. Management of the
     Program does not have control over the investment of excess cash, and the statement of cash
     flows considers all funds deposited with the Treasurer to be cash and cash equivalents,
     regardless of actual maturities of the underlying investments. Deposits with the Nevada State
     Treasurer are accounted for on the balance sheet as cash and cash equivalents.

     Loans Receivable

     Nevada operates the Program as a direct loan program, whereby the majority of loans made to
     water systems are funded by the Federal capitalization grant and/or match from State funds.
     Additional loans can be made from revolving funds that have been repaid to the Program and
     Program earnings. The Program’s loans are evidenced by a formal loan contract between the
     Division and the borrower. Loan funds are disbursed to borrowers after they incur costs for the
     purposes of the loan, request reimbursement from the Program, and the Program receives the
     Federal share from EPA.

     Interest rates are based on the Bond Buyer Municipal Index, which is published on a weekly basis
     each Friday, and currently range from 3.46 to 4.03 percent. In determining the interest rate
     offered to a loan recipient, the rate of interest as published by the Bond Buyer Municipal Index on
     the Friday preceding the date on which the recipient loan contract is executed is multiplied by a
     percentage, which is sixty-six and 2/3 percent (66.667%). No provision for doubtful accounts has
     been made as all loans are current, and management believes that all loans will be repaid
     according to the loan terms.

     Bonds Payable

     The State issues state match bonds to meet its state match obligation. Bond premiums and
     costs of issuance are amortized over the life of the bonds. All bonds are backed by the full faith
     and credit of the State of Nevada, with the Program primarily responsible for repayment.

     Contributed Capital

     In accordance with generally accepted accounting principles applicable for the period, funds
     received from EPA and Nevada for the capitalization of the Program are recorded as contributed
     capital rather than fund revenue.

                                                  6
3.     Cash and cash equivalents

       All monies of the Program are deposited with the Nevada State Treasurer and are considered
       cash and cash equivalents. The Treasurer is responsible for maintaining the cash balances in
       accordance with Nevada laws. Details of the investments of the State Treasurer can be obtained
       from the State Treasurer.

       As of June 30, 2001, the Program investments with the State Treasurer totaled $2,963,485. The
       Program earned $240,012 from deposits with the Treasurer during fiscal 2001. Deposits with the
       Treasurer are not categorized because they are not evidenced by securities that exist in physical
       or book entry form.

                                                                                                Market
                                                                         Cost                   Value
          Not subject to categorization:
               Consolidated cash pool                             $ 2,963,485                 $2,963,485


4.     Loans Receivable

       The Program makes loans to qualified public water systems for projects that meet the eligibility
       requirements of the SDWA. Loans have been financed by federal capitalization grants and state
       match contributions. As of June 30, 2001, $19,312,602 in federal funds and $4,927,168 in state
       match had been disbursed for loans. The Program made loans to the Southern Nevada Water
       Authority in the amount of $22,269,695, which represents approximately 92 percent of the
       amounts disbursed. Effective interest rates on loans vary between 3.46 and 4.03 percent, and
       are generally repaid over 20 years starting six months after the project is completed. Loans
       receivable as of June 30, 2001, are as follows:


                        Loan Amount         July1, 2000                                        June 30, 2001
     Category            Authorized           Balance      Disbursements         Repayments       Balance
Funding completed       $ 22,389,695       $ 12,269,695    $ 10,120,000          $ 427,551      $21,962,144
Funding in progress        9,450,987                  0       1,850,075                  0        1,850,075
  Totals                $ 31,840,682       $ 12,269,695    $ 11,970,075          $ 427,551      $23,812,219


       Loans mature at various intervals through July, 2021. The scheduled principal and interest
       payments on completely disbursed loans maturing in subsequent years are as follows:


               Year ending June 30:                          Principal           Interest        Total

                       2002                                $ 801,102            $ 773,623      $1,574,725
                       2003                                   829,759             742,641       1,572,400
                       2004                                   859,443             712,957       1,572,400
                       2005                                   890,188             682,212       1,572,400
                       2006                                   922,034             650,366       1,572,400
                       Thereafter                          17,659,618           5,059,724      22,719,342

                       Total                              $21,962,144       $ 8.621,523     $ 30,583,667




                                                    7
5.      State Match Bonds Payable

        The Series 1999B and Series 2000C bonds were issued by the State for the purpose of providing
        matching funds for the Program and paying costs of issuance. As of June 30, 2001, Nevada had
        deposited matching funds from the net proceeds of these bonds totaling $6,986,808. The bonds
        are general obligations of the State to which the full faith and credit of the State is pledged. The
        State expects the loan payments received from the public water systems to service debt on the
        bonds. Interest on the bonds is payable semiannually with interest rates ranging from 5.1
        percent to 5.75 percent. Principal is due annually through 2019 with optional early redemption, at
        the option of the State, with early redemption premiums ranging from no premium to 1 percent.
        Following is an analysis of changes in bonds payable for the year ended June 30, 2001:


                         July 1, 2000             New                                      June 30, 2001
                           Balance               Issues           Retirements                 Balance
        1999B Series     $ 5,430,000                -                   -                   $ 5,430,000
        2000C Series                -        $ 1,555,000                -                     1,555,000
                         $ 5,430,000         $ 1,555,000                                    $ 6,985,000

Premium (amortization)       50,448                32,727             $ (3,630)                  79,545

Total                    $ 5,480,448         $ 1,587,727              $ (3,630)             $ 7,064,545



The Program’s debt service requirements to maturity, excluding unamortized premium, are as follows:


        Year ending June 30:                          Principal      Interest          Total

                         2002                     $        -        $ 396,011       $ 396,011
                         2003                        195,000          376,855          571,855
                         2004                        305,000          363,167          668,167
                         2005                        310,000          346,380          656,380
                         2006                        320,000          329,180          649,180
                         Thereafter                5,855,000        2,422,684        8,277,684

                         Total                   $ 6,985,000      $ 4.234,277     $ 11,219,277



As of June 30, 2001, the status of the state match deposits were as follows:

                                         June 30, 2000             FY 2001              June 30, 2001
                                            Balance               Contribution             Balance

        Net bond proceeds                $ 5,430 626               $1,556,182           $ 6,986,808
        Amount Used on Loans                                                             ( 4,927,168)
        Amount Available                                                                $ 2,059,640




                                                      8
6.   Arbitrage Rebate

     In accordance with Internal Revenue Code Section 148(f) relating to arbitrage restrictions on tax-
     exempt bonds, an arbitrage rebate payable in the amount of $37,699 has been recorded for the
     Series 1999B and 2000C state match bond issues. The portion of the rebate due for the 1999B
     bonds will be due in November, 2004, and the portion due for the 2000C bonds will be due in
     February, 2006.

7.   Contributed Capital

     The Program is capitalized by EPA grants authorized by SDWA and matching funds provided by
     state match bonds. All EPA funds drawn for loans are recorded as contributed capital from EPA.
     All EPA funds drawn for set-asides are recorded as revenue. As of June 30, 2001, EPA had
     awarded capitalization grants of $34,900,900 to Nevada, of which $19,312,602 had been drawn
     for reimbursement of loan disbursements and recorded as contributed capital. An additional
     $2,200,602 had been drawn for set-aside expenses since inception of the Program and recorded
     as revenue. Additional revenue of $657,141 was recorded and due from EPA for set-asides as of
     June 30, 2001. The following summarizes the federal capitalization grants awarded, amounts
     drawn on each grant as of June 30, 2001, and balances available:

     Grants                                                                              Total
     As of June 30, 2000                                       $27,143,900
     Awards July 1, 2000 through June 30, 2001                 $ 7,757,000          $ 34,900,900

     Cash Draws
     As of June 30, 2000                                       $10,868,983
     Draws July 1, 2000 through June 30, 2001                  $10,644,221         ($ 21,513,204)
     Total Available as of June 30, 2001                                            $ 13,387,696


8.   Contingencies and Subsequent Events

     Contingencies

     The Program is exposed to various risks of loss related to torts; thefts of, damage to, or
     destruction of assets; errors or omissions; injuries to state employees while performing Program
     business; or acts of God. Nevada is self-insured against certain property and liability claims up to
     $1,000,000 and carries excess liability insurance for any claim in excess of $1,000,000. There
     have not been any claims against the Program since its inception.

     Subsequent Events

     Subsequent to year end, EPA awarded Nevada its 2001 capitalization grant for $6,231,280.
     Nevada’s matching share for this grant is $1,246,256.




                                                  9
        Independent Auditor’s Report on the
Nevada Drinking Water State Revolving Fund Program
       Internal Control Structure Based on an
          Audit of the Financial Statements
            Performed in Accordance with
           Government Auditing Standards




                       10
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                              WASHINGTON, D.C.
                                                                                                 OFFICE OF
                                                                                            INSPECTOR GENERAL




Mr. Alex Haartz, Deputy Administrator
Nevada State Health Division


We have audited the financial statements of the Nevada Drinking Water State Revolving Fund Program
(the Program) as of and for the year ended June 30, 2001, and have issued our report thereon dated July
25, 2002.

We conducted our audit in accordance with generally accepted auditing standards and Government
Auditing Standards issued by the Comptroller General of the United States. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the financial statements are
free of material misstatement.

The management of the Program is responsible for establishing and maintaining an internal control
structure. In fulfilling this responsibility, estimates and judgments by management are required to assess
the expected benefits and related costs of internal control policies and procedures. The objectives of an
internal control structure are to provide management with reasonable, but not absolute, assurance that
assets are safeguarded against loss from unauthorized use or disposition and that transactions are
executed in accordance with management’s authorization and recorded properly to permit the preparation
of financial statements in accordance with generally accepted accounting principles. Because of inherent
limitations in any internal control structure, errors or irregularities may nevertheless occur and not be
detected. Also, projection of any evaluation of the structure to future periods is subject to the risk that
procedures may become inadequate because of changes in conditions or that the effectiveness of the
design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the financial statements of the Program for the year ended June
30, 2001, we obtained an understanding of the internal control structure. With respect to the internal
control structure, we obtained an understanding of the design of relevant policies and procedures and
whether they have been placed in operation, and we assessed control risk in order to determine our
auditing procedures for the purpose of expressing our opinion on the financial statements and not to
provide an opinion on the internal control structure. Accordingly, we do not express such an opinion.

Our consideration of the internal control structure would not necessarily disclose all matters in the internal
control structure that might be material weaknesses under standards established by the American
Institute of Certified Public Accountants. A material weakness is a condition in which the design or
operation of one or more of the specific internal control elements does not reduce to a relatively low level
the risk that errors and irregularities in amounts that would be material in relation to the financial
statements being audited may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions. We noted no matters involving the internal control
structure and its operations that we consider to be material weaknesses as defined above.

This report is intended for the information of management of the Program and the U.S. Environmental
Protection Agency. However, this report is a matter of public record and distribution is not limited.


Office of Inspector General
Western Audit Division
San Francisco, California
July 25, 2002
                                                     11
           Independent Auditor’s Report
 on Compliance with Requirements Applicable to the
Nevada Drinking Water State Revolving Fund Program
                in Accordance with
          Government Auditing Standards




                       12
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                               WASHINGTON, D.C.
                                                                                                   OFFICE OF
                                                                                              INSPECTOR GENERAL




Mr. Alex Haartz, Deputy Administrator
Nevada State Health Division

We have audited the financial statements of the Nevada Drinking Water State Revolving Fund Program
(the Program) as of and for the year ended June 30, 2001, and have issued our report thereon dated July
25, 2002.

We have also audited the Program’s compliance with specific program requirements governing
allowability for specific activities, allowable types of assistance, state matching, period of availability of
funds and binding commitments, cash management, program income, and subrecipient monitoring that
are applicable to the Program for the year ended June 30, 2001. The management of the Program is
responsible for the Program’s compliance with those requirements. Our responsibility is to express an
opinion on those requirements based on our audit.

We conducted our audit of compliance in accordance with generally accepted auditing standards,
Government Auditing Standards, issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about whether
material noncompliance with the requirements referred to above occurred. An audit includes examining,
on a test basis, evidence about the Program’s compliance with those requirements. We believe that our
audit provides a reasonable basis for our opinion.

In our opinion, the Program complied, in all material respects, with the specific program requirements that
are applicable to the Program for the year ended June 30, 2001.

This report is intended for the information of management of the Program and the U.S. Environmental
Protection Agency. However, this report is a matter of public record and its distribution is not limited.


Office of Inspector General
Western Audit Division
San Francisco, California
July 25, 2002




                                                       13
Supplemental Information




           14
                                         State of Nevada
                               Drinking Water State Revolving Fund
                                 Schedule of Set-aside Expenses
                                    Year Ended June 30, 2001




                                    State Program   Technical          Local
                     Administrative Management      Assistance       Assistance        Total

Salaries and Benefits $   124,836   $          -    $          -     $    59,324   $      184,160
Equipment                       -         30,105               -          14,985           45,090
Contracts                  35,639        436,138         179,666         358,379        1,009,822
Travel                      4,527         20,766               -           2,191           27,483
Indirect Costs             21,901          8,816               -               -           30,717
Other Operating Costs      34,852         19,634           2,155           6,261           62,902

Total                $    221,754   $    515,459    $   181,821      $   441,140   $    1,360,174




                                              15
                                        Report Distribution


EPA, Headquarters:

Director, Grants Administration
Agency Followup Coordinator
Associate Administrator for Congressional
         and Intergovernmental Relations
Associate Administrator for Communications,
         Education and Public Affairs
Infrastructure Branch Chief
DWSRF Coordinator
DWSRF Audit Manager

EPA, Region 9:

Regional Administrator
Water Division Acting Director
Associate Director for Nevada
Manager for Drinking Water Office
Audit Liaison
DWSRF Coordinator

Other:
Nevada Department of Human Resources, Health Division
